APPENDIX

United States v. Domingo-Morales,
No. 20-50762 and 20-50768
(5th Cir. Mar. 3, 2021) (per curiam)

Case: 20-50762

Document: 00515765186

Page: 1

Date Filed: 03/03/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED

March 3, 2021

No. 20-50762
consolidated with
No. 20-50768
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Antonio Domingo-Morales,
Defendant—Appellant.
Appeals from the United States District Court
for the Western District of Texas
USDC No. 4:20-CR-185-1
USDC No. 4:20-CR-247-1
Before Wiener, Southwick, and Duncan, Circuit Judges.
Per Curiam:*
Appealing the judgments in two criminal cases, Antonio DomingoMorales challenges his within-guidelines sentence of 21 months of

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

Case: 20-50762

Document: 00515765186

Page: 2

Date Filed: 03/03/2021

No. 20-50762
c/w No. 20-50768

imprisonment and three years of supervised release for illegal reentry. As the
sole issue on appeal, he asserts that the enhancement of his sentence
pursuant to 8 U.S.C. § 1326(b)(1) is unconstitutional because the
enhancement is based on facts neither alleged in his indictment nor proven
to a jury beyond a reasonable doubt. The Government has filed an unopposed
motion for summary affirmance arguing that the issue is foreclosed and, in
the alternative, a motion for an extension of time to file a brief.
As the Government argues, and Domingo-Morales concedes, this
issue is foreclosed by Almendarez-Torres v. United States, 523 U.S. 224, 23947 (1998). See United States v. Wallace, 759 F.3d 486, 497 (5th Cir. 2014);
United States v. Rojas-Luna, 522 F.3d 502, 505-06 (5th Cir. 2008). Thus,
summary affirmance is appropriate. See Groendyke Transp., Inc. v. Davis, 406
F.2d 1158, 1162 (5th Cir. 1969).
Although the appeals of Domingo-Morales’s illegal reentry conviction
and supervised release revocation were consolidated, he does not address the
revocation in his appellate brief. Consequently, he has abandoned any
challenge to the revocation or revocation sentence. See Yohey v. Collins, 985
F.2d 222, 224-25 (5th Cir. 1993).
Accordingly, the Government’s motion for summary affirmance is
GRANTED, the Government’s alternative motion for an extension of time
to file a brief is DENIED, and the judgments of the district court are
AFFIRMED.

2

